VISA PLATINUM CREDIT CARD AGREEMENT
ISSUED BY: PITTSFORD FEDERAL CREDIT UNION

(2/10)

Retail Installment Credit Agreement
NOTICE: See reverse side for important information regarding your right to dispute billing errors.
1. AGREEMENT. This is an agreement between The Pittsford Federal Credit Union
(sometimes referred to as “PFCU”, “us” or “we”) and each applicant and/or co-applicant
(referred to as “you”) for a VISA account whose application is approved by PFCU. VISA
card(s) issued in connection with this account are referred to as “card”. This Agreement
will not be effective with respect to the purchase or lease of property or services until you
or a person authorized by you signs a sales slip or memorandum evidencing a purchase or
lease of property or services by use of the card. If you authorize a merchant by electronic
means (for example, through the Internet) or by telephone to debit your credit card account
to pay for the purchase or lease of property or services, your authorization will be considered
your signature on a sales slip. This Agreement will not be effective with respect to cash
advances until you or someone you authorize signs an advance request, a convenience
check or some other authorization for a cash advance or uses the card or your personal
identification number (PIN) at an automated teller machine (ATM) or other facility to obtain
a cash advance. Until this Agreement becomes effective, you will not be responsible for
any purchase or lease of property or service or cash advances by use of the card after its
loss or theft.
2. USING THE CARD. Each card must be signed by the individual whose name is printed
on it. You may use the card and/or your card number and card expiration date to make
purchases in person, by mail, electronically (through the Internet), or by telephone from
merchants and others who accept VISA cards. In addition you may obtain cash advances
from PFCU, from other financial institutions participating in the VISA program, from ATMs
that provide access to the VISA system (not all ATMs provide such access) or by using
a convenience check which we send you for that purpose. You will need to use your PIN
to obtain a cash advance from an ATM. You agree to pay all amounts charged by use of
the card, your card number or your PIN by you or anyone who is authorized by you to use
your account, plus other charges provided in this Agreement. For security purposes, you
agree not to write your PIN on the card itself.
NO USE FOR ILLEGAL TRANSACTIONS. You agree not to use your card or your card
number for any illegal transactions, such as unlawful gambling. We may assume, without
any further inquiry, that all transactions made by you or someone authorized by you using
the card or the card number are legal, even if we have actual or imputed knowledge of
information that might reasonably lead us to question whether a particular transaction is
legal.
3. RESPONSIBILITY AND OTHERS USING YOUR ACCOUNT. Your obligation to pay
the amount owed on your account continues until paid in full even though an agreement,
divorce decree or other court judgment to which PFCU is not a party may direct someone
else to pay the account balance. Each is individually responsible for all amounts on the
account and all are jointly responsible for all amounts owed. This means PFCU can enforce
this Agreement against any of you individually or all of you together.
4. CONVENIENCE CHECKS. We offer Convenience Checks as an optional means
to purchase or lease goods or services or to obtain cash. Convenience Checks may
not be used to make payments on your PFCU VISA account. Convenience Checks will
be posted to your account as a cash advance and Finance Charges and fees will be
assessed as described in Section 8. We will not certify a Convenience Check. We are
not required to honor a Convenience Check and will not be responsible for returning it
unpaid if (1) You do not have enough available credit on your account, (2) Your account
has expired or your right to use your account has been suspended or canceled by us, (3)
Your card or Convenience Checks have been reported lost/stolen, (4) Your Convenience
Check is postdated (shows a future date), or (5) You are in default under this Agreement.
In the event that we do not honor a Convenience Check presented to us for payment, it
will be returned to the payee and we will charge your account a Returned Check fee of
$20. If we do honor a Convenience Check when we are not required to do so, it will be
considered a cash advance and you will be responsible for repaying it under the terms of
this Agreement.
STOPPING PAYMENT OF A CONVENIENCE CHECK. You may ask us to stop payment
of a convenience check by calling us at (800) 836-8010. Your stop payment request
will only be effective for 14 days from the date of your call unless within that 14 days you
confirm it in writing, signed by you, describing with certainty the convenience check to be
stopped and sent to us at P.O. Box 726, Mendon, New York 14506. Even if you do that, we
may disregard your stop payment request starting six months after we receive it unless
you renew that request in writing to us before the end of that six month period. We will use
commercially reasonable efforts to stop payment on your convenience check. However,
you agree that we will not be responsible in any way if the convenience check that you
have requested us to stop payment on is cashed or otherwise presented for payment and,
using commercially reasonable efforts, we are unable to stop payment.
5. CREDIT LIMIT. Your credit limit will be displayed on each Monthly Statement. You
may not allow the balance of your account to exceed the credit limit which is approved
by PFCU. If on your request we, at our discretion, make advances from your account in
excess of your credit limit, our doing so will not change the amount of your credit limit, the
advances are still subject to the provisions of this Agreement, and you will be required to
repay any outstanding amounts which exceed your credit limit immediately on our demand.
Each payment you make on the account will restore your credit limit by the amount of the
payment which is applied to the principal amount of purchases and cash advances. You
may request an increase in your credit limit. We have the right to increase or decrease your
credit limit or to terminate your borrowing privileges at any time without advance notice to
you.
6. MONTHLY PAYMENT. Each month you must pay at least the minimum payment
shown on your statement within at least 28 days of the statement closing date. The
minimum periodic payment required is the total New Balance as shown on your monthly
billing statement if the amount is under $10.00. If the New Balance exceeds $10.00, the
minimum periodic payment is 3.00% of that portion of the New Balance which does not
exceed your credit limit, plus the entire portion of the New Balance in excess of your credit
limit, plus any amount past due, or $10.00, whichever is greater. You may at any time pay
more than the minimum amount due or even the total new balance shown on your
monthly statement. The sooner you pay your new balance, the less you will have to pay
in FINANCE CHARGES.
7. STATEMENTS AND NOTICES. Statements and notices will be mailed to you at
the most recent address you have given to PFCU. Notice sent to any one of you will be
considered notice to all.
8. FINANCE CHARGES.
Purchases – You can avoid paying a FINANCE CHARGE on current billing cycle
purchases (those itemized on your statement) if: (i) you pay for the current billing cycle
purchases by the due date appearing on the statement; and (ii) the statement shows no
previous balance for purchases or you paid the previous balance for purchases in full by

the due date shown on the previous statement. We figure the FINANCE CHARGE on your
purchases by applying the daily periodic rate to the "average daily balance." To get the
"average daily balance", we take the beginning principal balance of this account each day,
add any new purchases, and subtract any payments or credits applied to this principal
balance as well as unpaid finance charges. This gives us the daily balance. We then add
up all the daily balance for the billing period and divide the total by the number of days in
the billing period. This gives us the "average daily balance."
Therefore, the FINANCE CHARGE for the billing period is the (average daily balance) X
(the daily periodic rate) X (the number of days in the billing period).
Cash Advances – A FINANCE CHARGE will be added to your cash advance account
from the date of each cash advance transaction, unless we elect to accrue FINANCE
CHARGE from a later date. We figure the FINANCE CHARGE on your cash advances
by applying the daily periodic rate to the "average daily balance" of your cash advance
account (including current transactions). To get the "average daily balance", we take the
beginning principal balance of this account each day, add any new cash advances, and
subtract any payments or credits applied to this principal balance as well as unpaid finance
charges. This gives us the daily balance. We then add up all the daily balance for the
billing period and divide the total by the number of days in the billing period. This gives
us the "average daily balance".
Therefore, the FINANCE CHARGE for the billing period is the (average daily balance) X
(the daily periodic rate) X (the number of days in the billing period).
Therefore, the TOTAL FINANCE CHARGE for the billing period is (the FINANCE CHARGE
for purchases) + (the FINANCE CHARGE for cash advances).
9. IRREGULAR PAYMENTS. We may accept late payments, partial payments, or
items marked “payment in full” of the like without losing any of our rights under this
Agreement.
10. DELAY IN ENFORCEMENT. We may delay enforcing our rights under this Agreement
without losing them.
11. APPLICATION OF PAYMENTS. We may apply all payments and credits in accordance
with our standard operating procedures and with the requirements of applicable law.
Payment application occurs in the following order: (1) All Finance Charges and billed
fees; (2) All purchases; (3) All cash advances.
12. DEFAULT AND COLLECTION COSTS. Nearly all of our accounts are transacted in
a normal way. However, we have the following rights:
(a) Default. You will be in default on this account if: (i) you fail to make a required payment
on time; (ii) you fail to perform any other obligation to us, or any representation you make
proves to be untrue; (iii) you die or become the subject of a proceeding in bankruptcy; or
(iv) any third party attempts by legal process to take any money or other property of yours
in our possession. (v) if we reasonably believe you will not be able to repay us for any
reason. If more than one person is liable for the amounts owed under this Agreement, a
default that occurs with respect to one of you will constitute a default for all of
you.
(b) Responses to Default. Upon default we may without notice cancel the account and
require immediate payment of all or any part of the balance due. We may also exercise
any of our other legal rights.
If you have other loans from us, or take out other loans with us in the future, collateral
securing those loans will also secure your obligations under this agreement. However,
unless you expressly agree otherwise, your primary dwelling will not secure your obligations
under this agreement even if we have or later acquire a mortgage on the dwelling.
If you have executed a written agreement granting a security interest in any deposit
accounts (checking, savings, or share accounts) or other funds held by us to secure your
obligations under this credit card plan, such accounts and/or funds are additional security
for your obligations to us arising from the use of your Card.
(c) Attorney's Fees. In event of suit to collect unpaid balances, all costs, including attorney's
fees of 25% of the balance due, or such greater amount as may be reasonable and just,
and also those costs, expenses, and attorney's fees incurred in appellate, bankruptcy,
and post-judgment proceedings, shall be imposed.
13. NOTICE STATUTORY LIEN. Under the Federal Credit Union Act (12 U.S.C. Section
1757 (11)), Pittsford FCU has the right to impress and enforce a statutory lien against your
shares and dividends in the event of your failure to satisfy a financial obligation to us. We
may enforce that right by applying the balance of shares and dividends in your account(s)
at the time of that default in order to satisfy your VISA obligation. We may exercise this right
without further notice to you. However, shares that you have in any account that would
lose special tax treatment under any law, if subject to this interest, are excluded from this
interest.
14. CANCELLATION. We may reduce your credit limit or cancel the account altogether,
without notice to you. Unless you are in default, we will give you notice of any such reduction
or cancellation. We may also cancel your account by not sending you a renewal card
upon expiration of your outstanding card. You may cancel your account only by notifying
us to that effect and delivering the card(s) to us (cut in half).
15. SECURITY INTEREST. To secure your account, you grant us a purchase money
security interest under the Uniform Commercial Code in any goods you purchase through
the account. If you default, we will have the right to recover any of these goods which
have not been paid for through our application of your payments in the manner described
in section 11.
16. CREDIT INFORMATION. You will authorize us to investigate your credit standing when
opening, renewing, or reviewing your account. We may release information to others such
as credit reporting agencies and other creditors about our experience with your account.
We may obtain a credit report on you at any time in the future to review your account.
Upon request, we will tell you whether a consumer report was requested and the name
and address of the agency that furnished it.
17. MONTHLY STATEMENT. If you have a balance in your account at the end of your
billing period, we will send you a statement. It will show your total purchases and cash
advances for the billing cycle, the finance charge, the minimum payment due, and the
date the payment is due. The statement will be sent to you at least 21 days before the
date that your payment is due.
18. LOST OR STOLEN CARDS. In no event will you be liable for unauthorized use that
occurs after you notify us of the loss, theft or possible unauthorized use. In any case, your
liability will not exceed $50.

Under VISA's Zero Liability Policy, you have liability protection for all of your card transactions
that take place on the VISA system unless you are guilty of gross negligence or fraud.
Should someone steal your card or your card number or otherwise obtain and use your
card or your card number without your permission, you pay nothing for their activity unless
you, yourself, were grossly negligent or fraudulent. If you notice unauthorized activity on
your card, promptly contact PFCU to report it. It is important to continually monitor your
monthly statement to identify any unauthorized transactions. PFCU may impose greater
liability on you if the credit union reasonably determines that the unauthorized transaction
was caused by your gross negligence or fraudulent action—which may include your delay
for an unreasonable time in reporting unauthorized transactions. In any case, you must
immediately notify the credit union of loss, theft or unauthorized use of your card or your
card number. Notice of unauthorized use may originally be oral, but must be followed by
written notice. Notice must be given to the Pittsford Federal Credit Union, P.O. Box 726,
Mendon, NY 14506 or initially by calling us at (800) 836-8010.
19. EFFECT OF AGREEMENT. This Agreement is the contract which applies to all
transactions on your account even though the sales, cash advance, credit, or other slips
you sign or receive may contain different items. We may amend this Agreement from time
to time by sending you advance written notice before the change is effective. To the extent
the law permits, and indicated in the notice to you, the change will apply to your existing
account balances as well as to future transactions. Either PFCU or you may terminate this
Agreement at any time, but termination by you or PFCU will not affect your obligations. The
cards your receive remain property of PFCU and you must recover and surrender to PFCU
all cards upon request or upon termination of this Agreement whether by you or PFCU.
20. RETURNS, CREDIT BALANCES, OVERPAYMENTS AND ADJUSTMENTS. Merchants
and others who honor the Card may give credit for returns or adjustments, and they will
do so by sending us a credit slip which we will post to your account. If your credits and
payments exceed what you owe us, we will hold and apply this credit balance against
future purchases and cash advances, or, if it is $1 or more, refund it on your written request
or automatically after 6 months.

21. FEES. The following charges may be applied to your account, as applicable.
Annual Fee -- None.
Late Fee -- None.
Overlimit Fee -- None.
Card Replacement Fee -- When you make a request to change the account number or
replace the credit card for any reason, including a lost or stolen card, you may be charged
a fee of $15.
Returned Check Fee -- If any check submitted to us as a payment on the account is
returned to us for any reason, you may be charged a fee of $20.
Documentary Evidence Charges -- If you request documentary evidence of a transaction
on your account (for example, a copy of a sales draft), we may pass along to you the cost
of us researching this evidence at a rate of $10 per hour. No such charge will be imposed
unless the documentary evidence agrees with the transaction as previously reflected on your
statement. Further, no charge will be imposed for billing statement errors or inquiries.
22. FOREIGN TRANSACTIONS. Purchases and cash advances made in foreign
countries and/or foreign currencies will be billed to you in U.S. Dollars. The exchange rate
to dollars will be determined in accordance with the operating regulations established
by VISA International from time to time. As of the date these disclosures were published,
those regulations establish the conversion rate as either the rate selected by VISA from
the range of rates available in wholesale currency markets; this may vary from the rate
VISA itself receives, or the government-mandated rate in effect for the applicable central
processing date. The currency conversion rate used on the processing date may differ
from the rate that would have been used on the purchase date or statement posting date.
You will be required to pay any International Service Assessment fee (ISA fee) or other fee
that VISA imposes on you or us in connection with the transaction. Transactions that occur
in a foreign country and are processed in a foreign currency are subject to a 1.00% fee.
Transactions that occur in a foreign country and are processed in U.S. dollars will be subject
to a 0.80% ISA fee. Transactions conducted in U.S. military bases, territories, embassies,
or consulates; and fund transfers conducted by the cardholder will not be subject to the
0.80% ISA fee. A single foreign transaction will appear as two lines. There will be one
line displaying the charge followed by a separate line displaying the international service
assessment or other fee imposed by VISA.

YOUR BILLING RIGHTS
KEEP THIS NOTICE FOR FUTURE USE
This notice contains important information about your rights and our responsibilities under the Fair Credit Billing Act.
Notify Us In Case of Errors or Questions About Your Bill
If you think your bill is wrong, or if you need more information about a
transaction on your bill, write us on a separate sheet at our address
listed on your bill. Write to us as soon as possible. We must receive
your letter no later than 60 days after we sent you the first bill on
which the error or problem appeared. You can telephone us, but
doing so will not preserve your rights.
In your letter, give us the following information:

•

Your name and account number
The dollar amount of the suspected error
Describe the error and explain, if you can, why you believe
there is an error
If you need more information, describe the item you are not sure
about.

If you have authorized us to pay your credit card bill automatically
from your savings or checking account, you can stop the payment
on any amount you think is wrong. To stop the payment, your letter
must reach us three business days before the automatic payment is
scheduled to occur.
Your Rights and Our Responsibilities After We Receive Your
Written Notice
We must acknowledge your letter within 30 days, unless we have
corrected the error by then. Within 90 days, we must either correct
the error or explain why we believe the bill was correct.
After we receive your letter, we cannot try to collect any amount
you question, or report you as delinquent for that amount. We can
continue to bill you for the amount you question, including finance
charges, and we can apply any unpaid amount against your credit
limit. You do not have to pay any questioned amount while we are
investigating, but you are still obligated to pay the parts of your bill
that are not in question.

If we find that we made a mistake on your bill, you will not have to
pay any finance charges related to any questioned amount. If we
didn't make a mistake, you may have to pay finance charges, and
you will have to make up any missed payments on the questioned
amount. In either case, we will send you a statement of the amount
you owe and the date that it is due.
If you fail to pay the amount that we think you owe, we may report you
as delinquent. However, if our explanation does not satisfy you and
you write to us within ten days telling us that you still refuse to pay,
we must tell anyone we report you to that you have a question about
your bill. And, we must tell you the name of anyone we reported you
to. We must tell anyone we report you to that the matter has been
settled between us when it finally is.
If we don't follow these rules, we can't collect the first $50 of the
questioned amount, even if your bill was correct.
Special Rule for Credit Card Purchases
If you have a problem with the quality of property or services that
you purchased with a credit card, and you have tried in good faith
to correct the problem with the merchant, you may have the right
not to pay the remaining amount due on the property or services.
There are two limitations on this right:
(a) You must have made the purchase in you home state or, 		
if not within your home state, within 100 miles of your current
mailing address; and
(b) The purchase price must have been more than $50.
These limitations do not apply if we own or operate the merchant, or
if we mailed you the advertisement for the property or services.
Special Rule For New York Residents
New York Residents may contact the New York State Banking
Department to obtain a comparative listing of credit card rates,
fees, and grace periods. New York State Banking Department
1-800-518-8866.

(2/10)

